APPENDIX

App. A

United States v. Becerra, 958 F.3d 725 (2020)

958 F.3d 725
United States Court of Appeals, Eighth Circuit.

West Headnotes (14)

UNITED STATES of America, Plaintiff - Appellee
v.
Erik BECERRA, Defendant - Appellant

[1]

Criminal Law

Review De Novo

Criminal Law
obtained

Evidence wrongfully

On appeal from district court’s denial of motion
to suppress physical evidence and incriminating
statements, the Court of Appeals would review
for clear error the district court's factual findings,
and would review de novo any conclusions of
law.

No. 18-2777
|
Submitted: October 18, 2019
|
Filed: May 7, 2020
Synopsis
Background: Defendant was convicted in the United States
District Court for the District of Minnesota, Susan Richard
Nelson, J., of federal firearms offense, following denial of his
pretrial motion to suppress evidence, 2017 WL 5311435, and
he appealed.

1 Cases that cite this headnote
[2]

[3]

Arrest
Other officers or official
information
Arrest
Possession, disposal, or
concealment of article; flight or hiding
Police officers who arrived in response to
911 call from defendant's probation officer,
after defendant appeared in her office with a
noticeable bulge in his front coat pocket, which
the probation officer, who was already concerned
that defendant might be back on drugs, suspected
to be a firearm, had probable cause to believe that
defendant, who had lengthy criminal history, was
in illegal possession of firearm and thus could
effect his warrantless arrest, given that officers
were aware of information in 911 call and of
defendant's criminal history, and could see the
bulge in defendant's coat themselves. U.S. Const.
Amend. 4.

[2] police officer's questions to defendant following his arrest
did not have to be preceded by Miranda warnings;
[3] as matter of first impression, that defendant, a convicted
felon, allegedly possessed firearm innocently, solely for the
purpose of turning it over to police, was no defense to
prosecution under felon-in-possession statutes; and
[4] defendant's within-Guidelines sentence of 80 months was
neither procedurally nor substantively unreasonable.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion; Trial or Guilt Phase Motion or Objection.

Grounds for warrantless arrest in

Warrant is not required for individual's arrest,
when officer has probable cause to believe that
individual is committing a crime in officer’s
presence. U.S. Const. Amend. 4.

Holdings: The Court of Appeals, Stras, Circuit Judge, held
that:
[1] police officers had probable cause to believe that
defendant, who had lengthy criminal history, was in illegal
possession of firearm and thus could effect his warrantless
arrest;

Arrest
general

[4]

Criminal Law
general

Custodial interrogation in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 1

1

United States v. Becerra, 958 F.3d 725 (2020)

Generally speaking, statements made during a
custodial interrogation are inadmissible unless
a suspect has first been given
warnings.

[5]

Criminal Law
questions

[6]

Criminal Law

922(g)(1),

[10]

18 U.S.C.A. §§

924(a)(2).

Weapons

Possession

Defenses in General;
Weapons
Justification or Excuse
That defendant, a convicted felon, allegedly
possessed firearm innocently, solely for the
purpose of turning it over to police, was no
defense to prosecution under felon-in-possession
statutes, which prohibited mere possession of
firearm by felon, regardless of his motive in

Miranda warning.

Warnings

possessing it.

18 U.S.C.A. §§ 922(g)(1),

924(a)(2).

“interrogation,” for
Miranda purposes, if
their point is to enhance a defendant’s guilt.
[11]
Criminal Law

Review De Novo

review de novo on appeal.

Particular cases or

Even follow-up questions can amount to

[7]

Criminal Law

Whether to recognize an innocent-possessor
defense to being a felon in unlawful
possession of firearm was question of statutory
interpretation, which the Court of Appeals would

Miranda

While suspect was in custody, having just
been formally arrested by police officers, at
the time that officer, in response to suspect's
volunteered statement that he had “something”
in his car outside, asked the defendant what the
“something” was, officer's question was mere
request for clarification and did not amount to
custodial “interrogation,” such as should have
been preceded by

[9]

Public safety or rescue

Sentencing and Punishment
of responsibility

Acceptance

District court did not clearly err in finding
that defendant who persisted in pursuing an
“innocent possessor” defense to federal firearms
charge had not accepted responsibility for
his offense, as required to be entitled to
an acceptance-of-responsibility reduction in his

While police officer's question to suspect whom
he had just arrested on probable cause to believe
that suspect, who was known by officer to
have lengthy criminal history, was in unlawful
possession of firearm, when officer asked
whether the suspect had “anything illegal on
his person,” was a custodial question reasonably
likely to produce an incriminating response,
question did not have to be preceded by

base offense level at sentencing.

18 U.S.C.A.

§§ 922(g)(1),
3E1.1(a).

U.S.S.G. §

924(a)(2);

Miranda warning as coming within the
public-safety exception to

[8]

Criminal Law

Miranda.

[12]

Public safety or rescue

No
Miranda warnings are required for police
officers to ask questions reasonably prompted
by a concern for public safety, even when the
potential threat is to the officers themselves.

Sentencing and Punishment
offenses

Minnesota crime of first-degree aggravated
robbery was a “crime of violence,” for purposes
of sentencing a federal firearms defendant as
career offender.

18 U.S.C.A. §§ 922(g)(1),

924(a)(2); Minn. Stat. Ann. § 609.245(1);
U.S.S.G. §§ 2K2.1,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 2

Particular

4B1.2(a).

2

United States v. Becerra, 958 F.3d 725 (2020)

[13]

Sentencing and Punishment
illness or disorder
Weapons
crime

Manvir Kaur Atwal, Assistant Federal Public Defender,
Federal Public Defender's Office, Minneapolis, MN, for
Defendant-Appellant.

Mental

Possession after conviction of

Before LOKEN, SHEPHERD, and STRAS, Circuit Judges.

Within-Guidelines sentence of 80 months
imposed on defendant with lengthy criminal
history who was convicted of being felon in
possession of firearm was not procedurally
unreasonable as alleged result of district court's
failure to consider, as mitigating, evidence of
defendant's mental difficulties; district court
did consider defendant's mental problems in
imposing a lower Guidelines sentence, and its
failure to impose an even lower sentence was not
procedural error.
924(a)(2);

18 U.S.C.A. §§ 922(g)(1),

Opinion
STRAS, Circuit Judge.
Erik Becerra was charged as a felon in possession of a firearm
and ammunition. He thinks the district court should have
let him testify that he intended to hand the gun over to his
probation officer. Whether this so-called innocent-possessor
defense is available has long been an open question. We now
join a number of other courts in declining to recognize it.
Because none of his other challenges have merit either, we
affirm.

U.S.S.G. § 1B1.1 et seq.
I.

[14]

Sentencing and Punishment
Offenses, Charges, Misconduct
Weapons
crime

Other

Possession after conviction of

Within-Guidelines sentence of 80 months
imposed on defendant with lengthy criminal
history who was convicted of being felon in
possession of firearm was not substantively
unreasonable.
924(a)(2);

18 U.S.C.A. §§ 922(g)(1),
U.S.S.G. § 1B1.1 et seq.

*727 Appeal from United States District Court for the
District of Minnesota
Attorneys and Law Firms
Craig Raymond Baune, Assistant U.S. Attorney, Michael
L. Cheever, Assistant U.S. Attorney, Bradley M. Endicott,
Assistant U.S. Attorney, Lindsey E. Middlecamp, U.S.
Attorney's Office, Saint Paul, MN, for Plaintiff-Appellee.
Erik Becerra, Grove, MN, Pro Se.

Becerra’s probation officer was worried. A seven-time felon,
Becerra had left “rambling” voicemail messages for her that
did not “make any sense.” He also told a police officer who
had arrested him for driving under the influence that he was
“dirty.” She suspected that he was back on methamphetamine.
*728 Based on her concerns, she requested an
“apprehension and detention order,” which authorized
Becerra’s arrest. But before she could deliver it, he showed up
at her office wearing a coat with an ominous-looking bulge
in the front pocket. While he waited in the lobby, she called
9-1-1. The police officers who responded to the call decided
to arrest him.
Becerra was cooperative with the officers and held nothing
back. He told them that he had ammunition in his pocket and
a gun in a red Dodge Avenger parked outside. He was telling
the truth. They soon discovered .45-caliber ammunition in his
pocket and a black semiautomatic handgun under the driver’s
seat of the car.
These discoveries led to two federal felon-in-possession
charges, one for the gun and the other for the ammunition.
See

18 U.S.C. §§ 922(g)(1),

924(a)(2). After a jury

found him guilty of both counts, the district court 1 entered
judgment and imposed an 80-month, within-Guidelines-range
sentence.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 3

3

United States v. Becerra, 958 F.3d 725 (2020)

1

The Honorable Susan Richard Nelson, United
States District Judge for the District of Minnesota.

Becerra has held nothing back on appeal either, raising an
array of challenges to his convictions and sentence. His main
focus is on the district court’s evidentiary rulings, starting
with what it let in: (1) the handgun and the ammunition, and
(2) his incriminating statements. Then there is what it kept
out: testimony explaining why he possessed the handgun. The
challenges to his sentence run the gamut from procedural to
substantive.

II.
[1] We begin with Becerra’s challenges to what came
in during trial. In reviewing the district court’s denial
of his motion to suppress the physical evidence and his
incriminating statements, the standard is clear error for any
factual findings and de novo for conclusions of law. United
States v. Muhlenbruch, 634 F.3d 987, 995 (8th Cir. 2011).

[3] There was more than enough evidence for them to
conclude that he did. Once they arrived, the first probation
officer they saw appeared “extremely nervous.” She told
them that Becerra “more than likely ha[d] a gun on him.”
See United States v. Wright, 145 F.3d 972, 975 (8th Cir.
1998) (explaining that the statements of a reliable informant
can be enough for *729 probable cause). And the officers
themselves could see the large bulge in his front coat pocket.
See
Illinois v. Gates, 462 U.S. 213, 242, 103 S.Ct. 2317,
76 L.Ed.2d 527 (1983).
Moreover, the officers were not entering the situation blind.
The dispatcher shared the facts from the 9-1-1 call with them,
including that Becerra had a lengthy criminal history and
could have had drugs in his system. From their experience,
these facts made it more likely that he had a gun, and
the officers could reasonably conclude, based on these
circumstances, that probable cause existed. At that point,
warrant or not, they could arrest him. 2
2

A.
The first challenge is to the physical evidence used to convict
Becerra: the handgun and the ammunition. His theory is that
they were inadmissible as “fruit[s]” of an illegal arrest and
detention.
Segura v. United States, 468 U.S. 796, 804,
104 S.Ct. 3380, 82 L.Ed.2d 599 (1984). Without a warrant,
he says, the officers should never have been able to arrest him
in the first place.
[2] Even though a warrant is typically required for an arrest,
there are exceptions. One is when there is probable cause
to believe that an individual is committing a crime in the
officer’s presence. See
Atwater v. City of Lago Vista, 532
U.S. 318, 354, 121 S.Ct. 1536, 149 L.Ed.2d 549 (2001);
United States v. Robinson, 414 U.S. 218, 235, 94 S.Ct.
467, 38 L.Ed.2d 427 (1973). Here, as long as there was a
“substantial chance” that Becerra had a firearm on him, the
officers could arrest him.
District of Columbia v. Wesby,
––– U.S. ––––, 138 S. Ct. 577, 586, 199 L.Ed.2d 453 (2018)
(citation omitted) (explaining the probable-cause standard).

The presence of probable cause eliminates the
need for us to decide whether the undelivered
apprehension-and-detention order would have
independently justified the search.

B.
Even if the officers could arrest him, they still failed to
give

Miranda warnings before he made two incriminating

statements. See
Miranda v. Arizona, 384 U.S. 436, 478–
79, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966) (discussing what
warnings are required). While the officers handcuffed him,
he announced that he had “something” in his car. One of the
officers asked, “what’s in your car?” to which he replied,
“a gun.” The same officer then asked whether he “had any
weapons or anything illegal” on him, which prompted him
to admit that “he had bullets in his pocket.” The absence of
Miranda warnings, according to Becerra, should have kept
both statements out.
[4] Generally speaking, statements made during a “custodial
interrogation” are inadmissible unless a suspect has been
given Miranda warnings first. Id. at 444, 86 S.Ct. 1602.
We have no doubt that Becerra was in custody when he made
both statements. After all, the officers had just told him that
he was under arrest and were placing him in handcuffs at the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 4

4

United States v. Becerra, 958 F.3d 725 (2020)

time. See
Orozco v. Texas, 394 U.S. 324, 327, 89 S.Ct.
1095, 22 L.Ed.2d 311 (1969).
[5] The dispute is over whether the two questions that
prompted these statements amounted to interrogation. The
first one, “what’s in your car?” did not. It was a “request
for clarification” of Becerra’s spontaneous statement that he
had “something” in his car.
Butzin v. Wood, 886 F.2d
1016, 1018 (8th Cir. 1989). The “something” could have been
anything. So asking Becerra to clarify the ambiguity did not
require

Miranda warnings.

about it without the formality of

Miranda warnings. See

Liddell, 517 F.3d at 1009–10 (explaining that questions
like this one reduce the risk that officers will be “injured by the
mishandling of unknown firearms or drug paraphernalia”);
see also id. at 1010 (noting that the presence of one weapon
raises the concern of “additional weapons”). The answer they
then received became admissible.

Id.

III.

[6] To be sure, even follow-up questions can amount to
“interrogation” if their point is to “enhance the defendant’s
guilt.”

posed a danger to themselves and others, they could ask

Id. (quoting Wayne R. LaFave & Jerold H. Israel, 1

United
Criminal Procedure § 6.7, at 514 (1984)); see also
States v. Chipps, 410 F.3d 438, 445 (8th Cir. 2005). But at
that moment, the officer had not “expand[ed] the scope” of
Becerra’s original statement by asking about something else.
2 Wayne R. LaFave et al., Criminal Procedure § 6.7(d), at 882
(4th ed.). Rather, “what’s in your car?” was clearly designed
to identify the “something” that Becerra had mentioned was
there. Cf. id (explaining that an officer is free to ask, “did
what?” in response to a defendant’s statement that “I did it”).
[7] The second question is a different story. By asking about
“weapons or anything illegal on his person,” the officer
expanded the scope of the exchange beyond the subject of
Becerra’s original statement with a question that was likely
to “elicit an incriminating response.”
Rhode Island v.
Innis, 446 U.S. 291, 302, 100 S.Ct. 1682, 64 L.Ed.2d 297
(1980). At that point, clarification became interrogation. Even
so, Becerra’s answer, “a gun,” *730 was admissible for
a different reason: the question fell under the public-safety
New York v. Quarles, 467 U.S. 649, 655,
exception. See
104 S.Ct. 2626, 81 L.Ed.2d 550 (1984).
[8] No
Miranda warnings were required because “police
officers [may] ask questions reasonably prompted by a
concern for ... public safety,” even when the potential threat

We next address the evidence that the district court kept out
over Becerra’s objection: testimony that he had found the gun
earlier in the day and was about to hand it over to his probation
officer. The evidence was inadmissible, according to the
court, because it would have been irrelevant and confusing.
Becerra views his own testimony more charitably. His theory
is that it would have revealed that he had an “innocent”
motive. For this theory to work, however, an innocent motive
must be a defense to a felon-in-possession charge. The D.C.
Circuit has said that it is, but other circuits have come out the
other way. Compare

United States v. Mason, 233 F.3d 619,

623 (D.C. Cir. 2000), with
F.3d 215, 218 (4th Cir. 2005),

United States v. Gilbert, 430
United States v. Johnson,

459 F.3d 990, 996 (9th Cir. 2006),
United States v. Baker,
508 F.3d 1321, 1325 (10th Cir. 2007), and United States v.
Vereen, 920 F.3d 1300, 1306 (11th Cir. 2019).
[9] Whether to recognize an innocent-possessor defense
presents a question of statutory interpretation that we review
de novo. See United States v. Williams, 136 F.3d 547, 550 (8th
Cir. 1998). We have discussed the defense in the past, see, e.g.,
United States v. Montgomery, 444 F.3d 1023, 1026 (8th Cir.
2006), but we have never said one way or the other whether it
exists. 3 It is time to end the suspense. There is no innocentpossessor defense because there is no statutory basis for it.
3

Id. at 656, 104 S.Ct. 2626;

We have also declined to decide whether there is
a “justification” defense to a felon-in-possession

see
United States v. Liddell, 517 F.3d 1007, 1009–10 (8th
Cir. 2008). When they saw a bulge in Becerra’s pocket, they
were justifiably worried about what was in there. Because
it could have been a gun or other weapon that would have

charge. See, e.g.,
United States v. Thompson,
403 F.3d 533, 536–37 (8th Cir. 2005). Becerra does
not raise a justification defense, so nothing in our
opinion today resolves this lingering question.

is to the officers themselves.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 5

5

United States v. Becerra, 958 F.3d 725 (2020)

Two statutes are relevant. The first,
18 U.S.C. § 922(g),
tells us what is prohibited: for a felon to “possess” a “firearm
18 U.S.C. § 924(a)(2),
or ammunition.” The second,
supplies the mens rea of “knowingly.” So Becerra, a felon,
must have knowingly possessed the gun and ammunition.
[10] That is it. Neither statute requires Becerra to
have possessed either for a nefarious purpose. Knowing
possession, regardless of motive, is all that matters. See
Bryan v. United States, 524 U.S. 184, 193, 118 S.Ct.
1939, 141 L.Ed.2d 197 (1998) (explaining that “knowingly”
requires only “proof of knowledge of the *731 facts that
constitute the offense”). Even if Becerra intended to turn over
the gun (or the ammunition) to his probation officer, it is still
a crime to knowingly possess it in the first place. See, e.g.,
Vereen, 920 F.3d at 1306–11;

Gilbert, 430 F.3d at 218–20.

Becerra does not identify a textual “hook” for the defense.
Oral Arg. at 3:00–5:30. Rather, he says that it is an
important safety valve to prevent unfair and absurd results,
like penalizing a felon who just happens to find a gun
in a backpack and is on the way to turn it over to the
authorities. See
Mason, 233 F.3d at 623 (presenting a
similar hypothetical). The statute, however, already contains a
safety valve: it penalizes only knowing possession. So a felon
who innocently picks up a backpack with no knowledge that
a gun is inside is not a felon in possession. If Congress had
wanted to create another safety valve, it certainly knew how.
Johnson, 459 F.3d at 997; see, e.g., 18 U.S.C. § 931(b)
(creating an affirmative defense for employer-certified use of
body armor). It simply chose not to do so.

insistence that he was only an “innocent possessor” of the
gun. Whatever merit he believes this argument had, it is not a
“clear demonstrat[ion]” of acceptance of responsibility. Id. At
a minimum, we cannot say that the district court’s decision to
deny the reduction was “so clearly erroneous as to be without
foundation.” United States v. Nguyen, 339 F.3d 688, 690 (8th
Cir. 2003).
[12] Becerra’s second challenge is foreclosed by precedent.
He claims that he cannot be a career offender because his prior
conviction of first-degree aggravated robbery, Minn. Stat. §
609.245 subd. 1, is not a “crime of violence,”

U.S.S.G. §§

4B1.2(a). We have rejected this argument before,
2K2.1,
see United States v. Robinson, 925 F.3d 997, 999 (8th Cir.
2019), and do so again here.
[13] Finally, Becerra believes that his sentence is just plain
unreasonable. He makes two arguments, one procedural and
the other substantive. Procedurally, he believes the district
court erred by failing to consider his mental-health difficulties
as mitigation evidence. This argument, which we review for
plain error in light of his failure to raise it below, does not
get past the starting blocks because the court did consider the
evidence and “even lowered” his sentence in response. United
States v. Kay, 717 F.3d 659, 663 (8th Cir. 2013). The fact that
it refused to go even lower is not a procedural error, much less
a plain one.
[14] Becerra’s substantive-reasonableness challenge fares
no better. He received a within-Guidelines-range sentence
after the district court made “an individualized assessment
based on the facts presented, addressing [Becerra’s] proffered
information in its consideration of the [

18 U.S.C.] §

3553(a) factors.”
United States v. Parker, 762 F.3d 801,
812 (8th Cir. 2014) (internal quotation marks and citations
omitted). He has given us no reason to second-guess this

IV.
Having dealt with Becerra’s challenges to his conviction, we
move on to his 80-month prison sentence. He argues that
his sentence is too long because he deserved an acceptanceof-responsibility reduction, is not a career offender, and had
strong mitigation evidence. We disagree on every point.
[11] To receive an acceptance-of-responsibility reduction,
Becerra had to convince the district court that he “clearly
demonstrate[d] acceptance of responsibility for his offense.”

exercise of discretion. See
*732 United States v.
Feemster, 572 F.3d 455, 461 (8th Cir. 2009) (en banc).

V.
We accordingly affirm the judgment of the district court.

U.S.S.G. § 3E1.1(a) (emphasis added). He fell short in
making this showing, in no small part because of his repeated

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 6

6

App. B

United States v. Becerra, Not Reported in Fed. Supp. (2017)

which the parties duly submitted. (See Min. Entry for Nov. 17,
2017 Proceedings [Doc. No. 109], at 2; Def.’s Suppl. Mem.
[Doc. No. 112]; Gov’t’s Suppl. Mem. [Doc. No. 116].)

2017 WL 6397718
Only the Westlaw citation is currently available.
United States District Court, D. Minnesota.
UNITED STATES of America, Plaintiff,
v.
Erik BECERRA, Defendant.
File No. 15–CR–187 (SRN/FLN)
|
Signed 12/13/2017
Attorneys and Law Firms
Bradley M. Endicott and Lindsey E. Middlecamp, United
States Attorney’s Office, 300 South Fourth Street, Suite 600,
Minneapolis, MN 55415, for the Government.
Manvir K. Atwal and Lisa M. Lopez, Office of the Federal
Defender, 300 South Fourth Street, Suite 107, Minneapolis
MN 55415, for Defendant.

MEMORANDUM OPINION & ORDER
SUSAN RICHARD NELSON, United States District Judge
*1 This matter is before the Court on the Government’s pretrial Motion in Limine to Preclude Testimony or Arguments
that Encourage Jury Nullification (“Gov’t’s Mot.”) [Doc. No.
103]. For the reasons set forth below, and as stated on the
record during the second day of Defendant’s trial, the Court
grants the Government’s Motion.
I. BACKGROUND
Defendant Erik Becerra (“Becerra”) is charged with one count
of being a felon in possession of a firearm and one count of
being a felon in possession of ammunition, both in violation of
18 U.S.C. § 922(g)(1) and
§ 924(e). (Am. Indictment,
Counts 1–2 [Doc. No. 111].) Becerra’s trial commenced on
December 11, 2017, and as of the date and time of the Court’s
ruling on this motion, his trial was still underway.
Before trial, the Government filed a motion in limine urging
this Court to preclude “any attempts by the defense to
encourage jury nullification.” (Gov’t’s Mot. at 2.) Becerra
opposed. (See Def.’s Opp’n [Doc. No. 106].). At the final pretrial conference, this Court ordered supplemental briefing,

The Government argues that Becerra should be prohibited
from advancing any arguments to try to “justify” his alleged
possession of a gun and ammunition—for example, by
claiming that he was merely handing over the weapon
and ammunition to his probation officer on the day of his
arrest. (Gov’t’s Mot. at 2.) First, the Government contends
that a “defendant’s justification or state-of-mind behind
possessing the firearm is irrelevant” to the three elements
needed for a conviction, and thus arguments going to those
issues would “serve no purpose other than to encourage
jury nullification.” (Id.; Gov’t’s Suppl. Mem. at 8.) In the
alternative, the Government argues that even if relevant,
evidence regarding the circumstances of how Becerra came
to possess the gun should nevertheless be excluded under
Federal Rule of Evidence 403 because it would mislead
and confuse the jury. (Gov’t’s Suppl. Mem. at 8.) Second,
the Government urges this Court to preclude the “innocent
possession” defense at trial—an affirmative defense in felonin-possession cases that thus far has only been recognized
under limited circumstances by the District of Columbia
Circuit Court of Appeals. (Id. at 2–8.) The Government argues
that this defense is precluded by the statutory text as several
circuits have held. (Id. at 7.)
For his part, Becerra argues that granting the Government’s
motion would contravene the Federal Rules of Evidence
and more importantly, effectively deprive him of his
constitutional right to a fair trial, to tell his full story, and
to present a full defense. (See Def.’s Opp’n; Def.’s Suppl.
Mem.) First, Becerra argues that he should be permitted to
offer “a full account as to how [he] came to possess the
offending item(s) at issue, an explanation as to why he came
to possess said item(s), how long he possessed said item(s),
and so on” as “these matters are directly relevant” to the
element of knowing possession. (Def.’s Suppl. Mem. at 3.)
In other words, Becerra argues that he must be “permitted
to demonstrate that any touching was too fleeting to pass
muster under the charged statute,” or “that any possession
was insufficiently knowing to result in a guilty verdict.” (Id.
at 4.) Second, Becerra also argues that this Court should not
preclude an “innocent possession” defense before the full trial
evidence is in. (Id. at 6.) He stresses that even if several
federal circuit courts have rejected the “innocent possession”
defense, the availability of the defense is still an open question
in the Eighth Circuit. (Id.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 7

1

United States v. Becerra, Not Reported in Fed. Supp. (2017)

*2 On the morning of December 11, 2017, just before the
start of Becerra’s jury trial, the Court advised the parties that
it would defer ruling on the Government’s motion until the
Government finished its case in chief and Becerra decided
whether he would testify on his own behalf. 1 On December
12, 2017, during the second day of trial, Becerra elected to
testify, and the Court requested that he proffer some evidence
that would support an “innocent possession” defense so
that the Court could make the appropriate admissibility
determination and rule on the Government’s motion. The
Court underscored that its ruling would be based on the
relevance of the proffered testimony.
1

The Court did, however, preclude Becerra from
raising the “innocent possession” defense in his
opening statement since, even under the D.C.
Circuit Court authority in
United States v.
Mason, 233 F.3d 619 (D.C. Cir. 2000), any such
instruction should only be given under very limited
factual circumstances which must be established at
trial.

That same afternoon, the Court entertained a proffer by
Becerra’s counsel, as well as a statement offered directly by
Becerra. In his statement, while asking the Court to permit
an “innocent possession” defense, Becerra also strongly
contested the constitutionality of the search of the vehicle
where the gun was ultimately found the afternoon of May 5,
2015.
The proffer by Becerra’s counsel was as follows. As to how
he came to drive the red car that was searched on the day
of his arrest, Becerra stated that on May 4, 2015, he went to
a car dealership looking for a car to purchase. He contends
that someone at the car dealership then put him in touch with
another individual who subsequently let him keep the car
temporarily in order to test drive it. This red car, however, was
not test-driven from the dealership.
In the early morning hours of May 5, 2015, at approximately
4:30 to 5 a.m., Becerra drove the red car to the Minneapolis–
St. Paul airport and parked it. Very concerned for his safety
with respect to a domestic issue and believing that he was
being followed, Becerra made contact with the airport police
and asked for their help. According to him, however, the
airport police were not helpful and did not believe him.
Specifically, he believes that they did not take seriously his

requests to follow up regarding a vehicle that was following
him.
After his exchange with the airport police, Becerra went back
to the red car and for the first time noticed what he thought
might be a gun under the driver’s seat. When asked by the
Court why he did not immediately notify the airport police
about the object he thought might be a gun, defense counsel
indicated that it was because by then, Becerra had no trust in
the airport police officers since they had declined to assist him
or follow up on his requests.
From the airport, Becerra drove to his probation office located
in Brooklyn Center, Minnesota, wishing to speak to his
probation officer, Bobbi Harrington (“Harrington”). When he
arrived at the probation office, it had not yet opened for the
day. Because the probation office was closed, Becerra went
to two establishments very close by. First, he stopped at a
Holiday gas station. Afterward, he drove to and went inside
of a Walmart, which is also in the same general vicinity.
There is some uncertainty as to what happened when Becerra
went into Walmart. In some prior out-of-court testimony,
Becerra appears to have told an officer that he actually took
the gun when he went inside the Walmart. But apparently
in another statement, Becerra stated that he could not recall
whether he brought the gun into the Walmart. Defense counsel
also explained that Becerra went into the Walmart to purchase
some gifts.
*3 Although probation services only has a record of Becerra
appearing at the office on two occasions that day, he contends
that he went back to the probation office for a second time,
but again could not speak with Harrington. Becerra left a note
addressed to her, stating that he would be back at 4 p.m. that
day. Becerra then drove—with the gun still in the vehicle—
to Apple Valley, Minnesota, some distance away, to drop off
some gifts.
Later that afternoon, Becerra drove back from Apple Valley to
the probation office in Brooklyn Center, and arrived there at
approximately 12:35 to 12:45 p.m. He parked the red car, put
the ammunition in his pocket, left the gun inside the vehicle,
and went into the probation office. Becerra was finally able
to make contact with Harrington at that time. But during their
initial exchange in the lobby, Becerra did not tell Harrington
about the gun and ammunition. Rather, the testimony so far
evidences that it was only after he was handcuffed by Officer
Burtus and informed that he was under arrest that Becerra

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 8

2

United States v. Becerra, Not Reported in Fed. Supp. (2017)

first disclosed that a gun was in the red car and that he had
ammunition in his pocket.
The Court notes that Becerra’s proffer and Harrington’s
testimony during the first day of trial both evidence that
Becerra’s conduct on May 4th and 5th occurred in the context
of expressions by Becerra of constant concern and fear about
his safety. Harrington testified that Becerra had specifically
expressed to her on a number of occasions his fear about his
safety, and that she in fact gave him contact information for
an FBI agent.
After Becerra’s proffer, the Court adjourned for a recess, and
then ruled from the bench as follows.
II. DISCUSSION
In United States v. Mason, 233 F.3d 619 (D.C. Cir. 2000)—
the relevant D.C. Circuit case—the D.C. Circuit was the first
(and so far only) federal court of appeals to recognize and
§ 922(g)(1).
define the “innocent possession” defense to
Mason involved a delivery driver who came upon a brown
paper bag on the ground while he was out making a delivery.
233 F.3d at 621. The paper bag contained a gun with
ammunition in it. Id. He picked it up and took it with him to
his truck, claiming he did so because there was a school in the
area and there were children outside. Id. The defendant tucked
the weapon into his weight belt and proceeded to the Library
of Congress, his next stop, where he intended to turn the gun
over to a police officer he knew. Id. But before he could do
so, another officer observed the gun and arrested him. Id.
A jury convicted Mason of one count of unlawful possession
of a firearm and ammunition in violation of
§ 922(g)
(1), but the D.C. Circuit reversed and remanded for a new
trial.
Id. at 621–22, 625. The D.C. Circuit held that the
district court should have instructed the jury on the “innocent
possession” defense.
Id. at 621. Defining the narrow
contours of that defense, the D.C. Circuit held that a defendant
may only invoke the defense when two requirements are
met: the evidence must show that “(1) the firearm was
attained innocently and held with no illicit purpose and (2)
possession of the firearm was transitory—i.e., in light of
the circumstances presented, there is a good basis to find
that the defendant took adequate measures to rid himself of
possession of the firearm as promptly as reasonably possible.”

concluded that “a defendant’s actions must demonstrate both
that he had the intent to turn the weapon over to the police
and that he was pursuing such an intent with immediacy and
through a reasonable course of conduct.” Id. (quoting Logan
v. United States, 402 A.2d 822, 827 (D.C. 1979)).
*4 Since Mason, five federal circuits have expressly rejected
the “innocent possession” defense defined by that case,
primarily on grounds that the defense is precluded by the
statutory text. See

United States v. Baker, 508 F.3d 1321,

1327 (10th Cir. 2007);

United States v. Johnson, 459 F.3d

990, 996 (9th Cir. 2006);

United States v. Gilbert, 430 F.3d

215, 216 (4th Cir. 2005);

United States v. Teemer, 394 F.3d

59, 63–65 (1st Cir. 2005);
United States v. Hendricks,
319 F.3d 993, 1007 (7th Cir. 2003); see also United States
v. Jackson, 598 F.3d 340, 349 (7th Cir. 2010) (“[W]e have
not recognized such a[n] [“innocent possession”] defense and
decline to do so in this case.”)
The Eighth Circuit, however, has thus far declined to
affirmatively rule on the defense’s availability in this circuit.
See, e.g.,
United States v. Likens, 464 F.3d 823, 826
(8th Cir. 2006) (“[Defendant] did not commit a technical
or accidental violation of the statute, nor, assuming without
deciding that such a defense might be available in a
proper case, was his possession innocent or transitory.”)
Nevertheless, the Eighth Circuit has made clear that in order
to invoke such a defense if it were available, a defendant
would have to establish the “factual predicate” necessary
for the instruction. See, e.g., United States v. Montgomery,
444 F.3d 1023, 1026 (8th Cir. 2006). For instance, in United
States v. Montgomery, the Eighth Circuit affirmed the district
court’s denial of the “transitory or innocent possession”
jury instruction where the defendant had helped his father
purchase guns from a pawn shop and had carried the
weapons out to his father’s car. Id. at 1025–26. After the
defendant was convicted of one count under
§ 922(g)
(1), he sought reversal, contending that “the evidence only
showed transitory possession.” Id. at 1026. The Eighth Circuit
disagreed, stating that “[s]ince Montgomery neither acquired
the firearms innocently nor intended to turn them over to
law enforcement, see
United States v. Mason, 233 F.3d
619, 624 (D.C. Cir. 2000),” he had not “establish[ed] the
factual predicate for an instruction on innocent or transitory
possession.” Id.

Id. at 624. As to the second prong, the Court further
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 9

3

United States v. Becerra, Not Reported in Fed. Supp. (2017)

The Eighth Circuit has also opined on the availability of
the defense in several more recent decisions. Again, without
explicitly adopting the D.C. Circuit’s formulation, the Eighth
Circuit has stated that it declined to determine whether to
adopt the defense because the evidence before it did not
meet the two prongs of Mason. For instance, in United States
v. Byers, the Eighth Circuit held that, “[l]eaving open the
question whether the duration of possession might ever be
relevant to a finding of knowing possession, ... the facts in
the instant case did not warrant or require an instruction to
that effect.”
603 F.3d 503, 507 (8th Cir. 2010). Next, the
court held that “[w]ith respect to the question of innocent or
transitory possession,” Byers “ha[d] not demonstrated that he
obtained the firearms innocently without an illicit purpose or
that he tried to rid himself of them as promptly as reasonably
possible,” alluding to the two elements of Mason. Id. Indeed,
the Eighth Circuit reasoned, the defendant’s possession had
been “transitory” only because he had dropped the weapons
while fleeing to avoid capture. Id. Thus, the Eighth Circuit
declined yet again to decide whether the defense would ever
be available. Id.; see also United States v. Wright, 682 F.3d
1088, 1090–91 (8th Cir. 2012) (stating that the defense of
“transitory or innocent possession,” although not yet adopted
by the Eighth Circuit, did not apply because the defendant had
failed to rid himself of the firearm as promptly as reasonably
possible after learning of its presence in the car that he
occupied).
*5 Here, the Court finds that even if the “innocent
possession” defense were permitted by the Eighth Circuit,
although the present facts are distinguishable from
Montgomery and Byers, Becerra has nevertheless failed
to establish the “factual predicate” necessary to support a
jury instruction on the defense. Even assuming, without
deciding, that his proffer showed that he obtained the gun and
ammunition innocently and with no illicit purpose, it still does
not show that “he had the intent to turn [them] over to the
police and that he was pursuing such an intent with immediacy
and through a reasonable course of conduct.”
F.3d at 624 (emphasis added).

Mason, 233

The evidence indicates that Becerra learned about the
presence of the gun between 4:30 and 5 a.m. on May 5th. But
it was not until he was arrested at around 1 p.m. later that
day that he first informed law enforcement of the gun and
End of Document

ammunition. There were countless occasions during those 7
or so hours between his discovery of the gun and his arrest,
when he could have reasonably taken steps to turn over the
prohibited items to law enforcement. If he did not trust the
airport police, there were any number of police departments
between the Minneapolis–St. Paul airport and the probation
office, and between the probation office and Apple Valley—
a distance Becerra drove twice—where he could have turned
over the gun and ammunition.
Instead, during all those hours, Becerra retained possession
of these prohibited items. He did not bring the gun into
the probation office. He might have brought the gun into
Walmart. And throughout this period of time, what he did
express to law-enforcement officers was that he feared for his
safety—a position that seems inconsistent with his contention
that all he was doing was trying to turn over the gun and
ammunition. Under these circumstances, the Court finds that
Becerra’s conduct does not satisfy the second prong of Mason,
and therefore he may not invoke the “innocent possession”
defense.
With respect to Becerra’s position that he should nonetheless
be able to testify about his intentions before the jury, the Court
disagrees because there is no relevance to it. In the absence
of an “innocent possession” defense, the reasons why Becerra
did things the way he did has no relevance to whether or
not he was in possession of the firearm and the ammunition.
But it certainly does raise a concern about confusing the jury,
making them wonder about the testimony and whether they
would be permitted to find him not guilty because he intended
to turn the weapon and ammunition over to the police.
Accordingly, for all of the aforementioned reasons, the
Government’s Motion in Limine is granted.
III. ORDER
Based on the foregoing, and all the files, records, and
proceedings herein, IT IS HEREBY ORDERED THAT
the Government’s Motion in Limine [Doc. No. 103] is
GRANTED as explained herein.
All Citations
Not Reported in Fed. Supp., 2017 WL 6397718
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. - 10

4

